*

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
No.
TONY DECLOUES - PETITIONER
VS.
STATE OF LOUISIANA, - RESPONDENT
APPENDICES
INDEX TO APPENDICES
Appendix A: 7-10-20

The U.S. Fifth Circuit Court of Appeal denied COA,
Tony Decloues, 5th Cir. No: 19-30501, U.SD.C. 2:14-CV1158.

Appendix B1 Sc 2: 5/30/19 U. S. District Court, Eastern District of Louisiana, Judgment
and order adopting the Magistrate’s recommendation and
denying federal habeas relief. USDC No. 2:14-CV-1158.
Appendix C: 3/8/19

Magistrate Report and recommendation.

Appendix D: 4/22/16

1st Order and Judgment in U. S. District Court, Eastern
District of Louisiana.

Appendix E: 5/19/17

The U.S. Fifth Circuit Court of Appeal granted in part and
denied in part COA, Tony Decloues, 5th Cir. No: 16-30579,
U.S.D.C. 2:14-CV-1158.

Appendix F: 8/17/18

Per Curiam from The U.S. Fifth Circuit Court of Appeal
granted in part and Vacating denial of habeas petition and
remanding so that the district court can obtain mid review the
video of the confession. Tony Decloues, 5th Cir. No: 1630579, U.SD.C. 2:14-CV-1158.

27

RELEVANT STATE COURT DECISIONS CITED IN MAGISTRATE REPORT
Appendix G:

2/7/14

State v. Dechues, 131 So.3d 857 (Mem), 2013-1694
(La.2/7/14).

Appendix H:

3/23/11

State v. Dechues, 62 So.3d 778, 2010-1247 (La. App.
4 Cir. 3/23/11).

28

case: 19-30501

Document: 00515485687

Page: 1

Date Filed: 07/10/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-30501
A True Copy
Certified order issued Ju! 10,2020

dtA W.

TONY DECLOUES

Clerk, IXS. Court of Appeals, Fifth Circi

Petitioner-Appellant
v.
DARREL VANNOY, WARDEN, LOUISIANA STATE PENITENTIARY,
Respondent-Appellee
Appeal from the United States District Court
for the Eastern District of Louisiana
ORDER:
Tony Decloues, Louisiana prisoner # 193085, moves for a certificate of
appealability (COA) to appeal the denial of his 28 U.S.C. § 2254 application
challenging his conviction for second degree murder. Decloues argues that the
trial court erred in denying his motion to suppress his confession, wherein he
argued that his waiver of rights was not knowing and intelligent under
Miranda v. Arizona, 384 U.S. 436 (1966).
To obtain a COA, Decloues must make “a substantial showing of the
denial of a constitutional right.”

28 U.S.C. § 2253(c)(2); see Miller-El v.

Cockrell, 537 U.S. 322, 336 (2003). Because the district court denied Decloues’s
claims on the merits, he “must demonstrate that reasonable jurists would find
/

the district court’s assessment of the constitutional claims debatable or wrong”
or that “the issues presented were adequate to deserve encouragement to
APPENDIX

A

Case: 19-30501

Document: 00515485687

Page: 2

Date Filed: 07/10/2020

No. 19-30501
proceed further.”

Slack v. McDaniel, 529 U.S. 473, 484 (2000) (internal

quotation marks and citation omitted). Decloues has not met this standard.
Accordingly, his motion for a COA is DENIED. Additionally, his motion
for leave to proceed in forma pauperis on appeal is DENIED.

Is/ Jennifer Walker Elrod
JENNIFER WALKER ELROD
UNITED STATES CIRCUIT JUDGE

2

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
TONYDECLOUES

CIVIL ACTION

VERSUS

NO. 14-1158

BURL CAIN

SECTIONS”
ORDER

Before the Court is petitioner Tony DeCloues’s petition for habeus
corpus pursuant to 28 U.S.C. § 2254.1 This petition is before the Court on
remand from the Fifth Circuit, which vacated the Court’s order adopting the
Magistrate Judge’s first Report and Recommendation and denying the
petition.2 The Fifth Circuit instructed this Court to obtain and review the
petitioner’s video confession to evaluate whether he was incapacitated
during his confession and was therefore unable to knowingly and voluntarily
waive his Miranda rights.3
The Court has obtained and viewed the video confession. It has also
reviewed the petition, the rest of the state record, and the applicable law. It

<5
1
2
3

R. Doc. 1.
R. Doc. 35; R. Doc. 25.
R. Doc. 35 at 4.

aJ

APPENDIX

B-1

has reviewed the Magistrate J udge’s second Report and Recommendation4
and the petitioner’s objections to this Report and Recommendation.5
The state court determined that petitioner was sober enough to
comprehend the consequences his words during his confession. The Court
does not find this determination to be based on an unreasonable
determination of the facts in light of his demeanor in the video confession
and the evidence presented at the petitioner’s competency hearing. Nor was
the state court’s determination that petitioner’s confession was voluntary
contrary to clearly established federal law. As the Magistrate Judge points
out in her report, petitioner was alert and responsive throughout his
confession. His statements were indicative of a person with accurate recall
and a lucid mind. There is no evidence of coercive police activity at any point
before or during petitioner’s confession. The Court therefore reaffirms its
earlier opinion that the Magistrate Judge correctly determined that the
petitioner knowingly and voluntarily waived his rights. Both of petitioner’s
claims are meritless. Accordingly, the Court adopts the Magistrate Judge’s
two Reports and Recommendations as its opinion therein.

R. Doc. 39.
R. Doc. 42; R. Doc. 42-1.
2

Petitioner’s objections to the second Report and Recommendation
merely rehash arguments made before the Magistrate Judge and are without
merit. Contrary to petitioner’s assertion, he is not entitled to counsel in these
proceedings. See Clark v. Johnson, 221 ¥ 3d 273, 283 (5th Cir. 2000) (“[I]t
[is] constitutional under due process to not provide counsel on discretionary
appeal.”). The Court therefore denies petitioner’s objections as meritless.
Rule 11 of the Rules Governing Section 2254 Proceedings provides that
“[t]he district court must issue or deny a certificate of appealability when it
enters a final order adverse to the applicant. Before entering the final order,
the court may direct the parties to submit arguments on whether a certificate
should issue.” Rules Governing Section 2254 Proceedings, Rule 11(a). A
court may issue a certificate of appealability only if the petitioner makes “a
substantial showing of the denial of a constitutional right.” 28 U.S.C. §
2253(c)(2); Rules Governing Section 2254 Proceedings, Rule 11(a) (noting
that § 2253(c)(2) supplies the controlling standard).

The “controlling

standard” for a certificate of appealability requires the petitioner to show
“that reasonable jurists could debate whether (or, for that matter, agree that)
the petition should have been resolved in a different manner or that the
issues presented [are] ‘adequate to deserve encouragement to proceed

3

further.”’ Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (quoting Slack v.
MacDaniel, 529 U.S. 473, 475 (2000)).
For the reasons stated in the two Reports and Recommendations,
petitioner has not made a substantial showing of the denial of a
constitutional right.

Accordingly, IT IS ORDERED that the petition is

DISMISSED WITH PREJUDICE. The Court will not issue a certificate of
appealability.

New Orleans, Louisiana, this _30th _ day of May, 2019.

SARAHS. VANCE
UNITED STATES DISTRICT JUDGE

4

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA !
CIVIL ACTION

TONY DECLOUES

NO. 14-1158

VERSUS

SECTION “R”

BURL CAIN
JUDGMENT
Considering the Court’s order on file herein,

IT IS ORDERED, ADJUDGED AND DECREED that the petition of
Tony DeCloues is hereby DISMISSED WITH PREJUDICE.
New Orleans, Louisiana, this 30th day of May, 2019.

SARAH S. VANCE
UNITED STATES DISTRICT JUDGE

APPENDIX

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
TONY DECLOUES

CIVIL ACTION

VERSUS

NO. 14-1158

N. BURL CAIN, WARDEN

SECTION: “R”(l)

REPORT AND RECOMMENDATION
This matter was referred to this United States Magistrate Judge for the purpose of conducting
a hearing, including an evidentiary hearing, if necessary, and submission of proposed findings of fact
and recommendations for disposition pursuant to 28 U.S.C. § 636(b)(1)(B) and (C) and, as applicable,
Rule 8(b) of the Rules Governing Section 2254 Cases in the United States District Courts. Upon
review of the record, the Court has determined that this matter can be disposed of without an
evidentiary hearing. See 28 U.S.C. § 2254(e)(2). Therefore, for all of the following reasons, IT IS
RECOMMENDED that the petition be DISMISSED WITH PREJUDICE.
Factual Background
Petitioner, Tony Decloues, is a state prisoner incarcerated at the Louisiana State Penitentiary
in Angola, Louisiana. On April 9, 2009, Decloues was charged by a bill of indictment with one count
of second degree murder.1 On April 20, 2010, after a trial, Decloues was found guilty as charged.2
On April 26, 2010, the trial court sentenced petitioner to the mandatory sentence of life imprisonment
without the benefit of parole, probation, or suspension of sentence.3

1 State Rec., Vol. 1 of 3, Bill of Indictment, 4/9/09.
2 State Rec.; Vol. 1 of 3, minute entry dated April 20, 2010; State Rec., Vol. 2 of 3, trial transcript of April 20,2010.
3 State Rec., Vol. 1 of 3, minute entry dated April 26,2010; State Rec., Vol. 2 of 3, sentencing transcript of April 26,2010.

1

APPENDIX

e.

On March 23, 2011, the Louisiana Fourth Circuit Court of Appeal affirmed petitioner’s
conviction and sentence.4 The Louisiana Supreme Court denied writs without stated reasons on
February 3, 2012.5

Petitioner did not seek a petition for writ of certiorari with the United States

Supreme Court.
>

In 2012, petitioner filed an application for post-conviction relief with the state district court.6

v.

On May 3, 2013, the state district court denied petitioner’s application.7 On June 1, 2013, petitioner
filed an application for supervisory writs with the Fourth Circuit Court of Appeal.8 On June 12, 2013,
the Fourth Circuit denied the writ application without reasons.9 On February 7, 2014, the Louisiana
Supreme Court denied petitioner’s related writ application.10
On May 16, 2014, petitioner filed the instant federal application seeking habeas corpus relief
Jn which he asserted two grounds for relief: (1) the trial court erred in denying his motions to suppress
the confession and resulting evidence because his confession was involuntary due to drug induced
intoxication and sleep deprivation; and (2) ineffective assistance of counsel for failing to investigate
and call witnesses and raise the issue of intoxication as a defense.11

4 State v. Decloues. 62 So.3d 778 (La. App. 4th Cir. 2011); State Rec., Vol. 2 of 3, 4th Cir. Opinion, 2010-KA-1247,
3/23/11.
5 State ex rel. Decloues v. State. 79 So.3d 1022 (La. 2012); State Rec. Vol. 2 of 3, La. S. Ct. Order, 2/3/12.
6 State Rec., Vol. 3 of 36. Federal habeas courts must apply Louisiana’s “mailbox rule” when determining the filing date
of a Louisiana state court filing, and therefore such a document is considered “filed” as of the moment the prisoner “placed
it in the prison mail system.” Causey v. Cain. 450 F.3d 601, 607 (5th Cir. 2006). Petitioner’s application is undated with
the exception of “2012” and there is no state district court minute entry reflecting the date of the filing. Petitioner, however,
argued that he filed his application on October 22, 2012. Rec.Doc. 17, p. 2.
V
7 State Rec., Vol. 1 of 3, judgment dated May 3, 2013.
8 State Rec., Vol. 3 of 3, Application for Writ, 2013-K-0782, signed June 1,2013.
9 State Rec., Vol. 3 of 3, 4th Cir. Order, 2013-K-0782, dated June 12, 2013.
10 State Rec., Vol. 3 of 3, La. Supreme Court Order, 2013-KH01694, dated February 7, 2014; Application for Writ, 13 KH
1694, signed July 11,2013.
" Rec. Doc. 1. “A prisoner’s.habeas application is considered ‘filed’ when delivered to the prison authorities for mailing
to the district court.” Roberts v, Cockrell. 319 F.3d 690, 691 n.2 (5th Cir. 2003). Petitioner certified that he placed his
application in the prison mail system on May 16, 2014. Rec. Doc. 4, p. 15; Rec. Doc. 1, p. 7.

2

The state challenged the timeliness of the application, but alternatively argued that the claims
were meritless.12 Decloues filed a traverse.13
On August 18, 2015, this court issued a Report and Recommendation in which it was
recommended that the federal habeas petition filed by Tony Decloues be found timely but dismissed
as his claims were meritless.14 Decloues filed an objection claiming the court should review the video
of his confession, which was not part of the state court record originally filed in this case.13 After
considering Decloues’s objections, the District Judge issued an Order and Judgment on April 22,2016,
dismissing Decloues’s petition.16 Decloues appealed to the United States Fifth Circuit Court of
Appeals.17
The Fifth Circuit authorized an appeal on two questions: (1) whether Decloues was too
incapacitated by drugs and sleep deprivation to waive knowingly and voluntarily his Miranda rights
before confessing to the. murder; and (2) whether this Court erred in rejecting the Miranda claim
without viewing the video. On August 17, 2018, the Fifth Circuit did not address petitioner’s
substantive Miranda claim, but vacated and remanded the matter for this court to obtain and review
the video of the confession.18
On September 12, 2018, the undersigned ordered the Orleans Parish District Attorney to file a
certified copy of the video of petitioner’s confession.19 A certified copy of the DVD including
petitioner’s video confession was filed with the court.20

12 Rec.
13 Rec.
14 Rec.
15 Rec.
16 Rec.
17 Rec.
18 Rec.
19 Rec.
20 Rec.

Doc. 16.
Doc. 17.
Doc. 21.
Doc. 22.
Docs. 25 and 26.
Doc. 27.
Doc. 35.
Doc. 36.
Docs. 37 and 38.

3

f

I. Standards of Review
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) comprehensively
overhauled federal habeas corpus legislation, including 28 U.S.C. § 2254. Amended subsections
2254(d)(1) and (2) contain revised standards of review for pure questions of fact, pure questions of
law, and mixed questions of both. The amendments “modified a federal habeas court’s role in
reviewing state prisoner applications in order to prevent federal habeas ‘retrials’ and to ensure that
state-court convictions are given effect to the extent possible under law.” Bell v. Cone. 535 U.S. 685
693 (2002).
As to pure questions of fact, factual findings are presumed to be correct and a federal court
will give deference to.the state court’s decision unless it “was based on an unreasonable determination
of the facts in light of the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d)(2);
see also 28 U.S.C. § 2254(e)(1) (“In a proceeding instituted by an application for a writ of habeas
corpus by a person in custody pursuant to the judgment of a State court, a determination of a factual
issue made by a State court shall be presumed to be correct. The applicant shall have the burden of
rebutting the presumption of correctness by clear and convincing evidence.”).
As to pure questions of law and mixed questions of law and fact, a federal court must defer to
the state court’s decision on the merits of such a claim unless that decision “was contrary to, or
involved an unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States.” 28 U.S.C. § 2254(d)(1). Courts have held that the “ ‘contrary
to’ and ‘unreasonable application’ clauses [of § 2254(d)(1)] havd independent meaning.” Bell. 535
U.S. at 694.
Regarding the “contrary to” clause, the United States Fifth Circuit Court of Appeals has
explained:

4

A state court decision is contrary to clearly established precedent if the state court
applies a rule that contradicts the governing law set forth in the [United States] Supreme
Court’s cases. A state-court decision will also be contrary to clearly established
precedent if the state court confronts a set of facts that are materially indistinguishable
from a decision of the [United States] Supreme Court and nevertheless arrives at a
result different from [United States] Supreme Court precedent.
Wooten v. Thaler, 598 F.3d 215, 218 (5th Cir. 2010) (internal quotation marks, ellipses, brackets, and
footnotes omitted).
Regarding the “unreasonable application” clause, the United States Supreme Court has held:
“[A] state-court decision is an unreasonable application of our clearly established precedent if it
correctly identifies the governing legal rule but applies that rule unreasonably to the facts of a
particular prisoner’s case.” White v. Woodall. 134 S. Ct. 1697, 1705 (2014). However, the Supreme
Court cautioned:
Section 2254(d)( 1) provides a remedy for instances in which a state court unreasonably
applies this Court’s precedent; it does not require state courts to extend that precedent
or license federal courts to treat the failure to do so as error. Thus, if a habeas court
must extend a rationale before it can apply to the facts at hand, then by definition the
rationale was not clearly established at the time of the state-court decision. AEDPA’s
carefully constructed framework would be undermined if habeas courts introduced
rules not clearly established under the guise of extensions to existing law.
IT, at 1706 (citations and quotation marks omitted). Therefore, when the Supreme Court’s “cases
give no clear answer to the question presented, let alone one in [the petitioner’s] favor, it cannot be
said that the state court unreasonably applied clearly established Federal law.” Wright v. Van Patten.
552 U.S. 120, 126 (2008) (quotation marks and brackets omitted). The Supreme Court has also
expressly cautioned that “an unreasonable application is different from an incorrect one.” Bell. 535
U.S. at 694. Accordingly, a state court’s merely incorrect application of Supreme Court precedent
simply does not warrant habeas relief.

Puckett v. Epps. 641 F.3d 657, 663 (5th Cir. 2011)

(“Importantly, ‘unreasonable’ is not the same as ‘erroneous’ or ‘incorrect’; an incorrect application of
the law by a state court will nonetheless be affirmed if it is not simultaneously unreasonable.”).
5

While the AEDPA standards of review are strict and narrow, they are purposely so. As the
United States Supreme Court has held:
[E]ven a strong case for relief does not mean the state court’s contrary conclusion was
unreasonable.
If this standard is difficult to meet, that is because it was meant to be. As amended by
AEDPA, § 2254(d) stops short of imposing a complete bar on federal court relitigation
of claims already rejected in state proceedings. It preserves authority to issue the writ
in cases where there is no possibility fairminded jurists could disagree that the state
court’s decision conflicts with this Court’s precedents. It goes no farther. Section
2254(d) reflects the view that habeas corpus is a guard against extreme malfunctions in
the state criminal justice systems, not a substitute for ordinary error correction through
appeal. As a condition for obtaining habeas corpus from a federal court, a state
prisoner must show that the state court’s ruling on the claim being presented in federal
court was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement.
Harrington v. Richter, 562 U.S. 86,102-03 (2011) (citations omitted; emphasis added); see also Renico
v. Lett. 559 U.S. 766, 779 (2010) (“AEDPA prevents defendants—and federal courts—from using
federal habeas corpus review as a vehicle to second-guess the reasonable decisions of state courts.”).
The Supreme Court has expressly warned that although “some federal judges find [28 U.S.C.
§ 2254(d)] too confining,” it is nevertheless clear that “all federal judges must obey” the law and apply
the strictly deferential standards of review mandated therein. White, 134 S. Ct. at 1701.
II. Facts
On direct appeal, the Louisiana Fourth Circuit Court of Appeal summarized the facts of this
case as follows:
On January 10,2009, June Jones discovered the body of Louise Decloues in the
bedroom of Ms. Decloues’ home at 1312 Cambronne Street. The seventy-four year old
victim had been stabbed five times. Three of the stab wounds were to her upper chest,
one was to her upper abdomen, and the last stab wound went through her wrist. In
addition, a plastic bag was tied over her head, causing her to asphyxiate. Upon
observing the victim lying on the floor with a bag over her head, Ms. Jones ran from
the house and called 911. Detective Randi Gant arrived at the scene, finding the
defendant (who resided with his mother at 1312 Cambronne Street) in the backyard.
He appeared agitated and tried to leave; he told the detective that he did not know what
6

had happened to his mother and that he had been at the house of a friend, Pershing
Matthews, since 2:00 p.m. on the previous day.
The defendant was transported to the homicide office, where he was met by
Detective Anthony Pardo who read him his rights. The defendant signed a rights of
arrestee form and indicated to the detective that he understood his rights. He initially
told Detective Pardo that he was at Mr. Matthews’ house. However, after being
confronted with the information that Mr. Matthews disputed this assertion, the
defendant eventually confessed to stabbing and suffocating his mother. After taping
his confession, the defendant showed the detective the dumpster on Dante Street where
he had disposed of the murder weapon and the clothing he had worn during the murder.
After obtaining a search warrant for the dumpster, the police retrieved a black gym bag,
blue lock box, gloves, sweat shirt, sweat pants, a knife, and a small white bag containing
newspaper. Everything recovered from the dumpster except the lock box had blood on
it that was identified as human blood. No latent prints were found on the recovered
knife, and no DNA testing was conducted on any of the evidence. In addition, two
pairs of shoes found under the defendant’s bed on Cambronne Street also contained
human blood.2
2The shoes were found when a search warrant was executed at the house on January 1 1, 2009.
Inexplicably, no DNA testing of the blood was done to discover if the blood on the defendant’s shoes
was that of his mother.

Meanwhile, shortly after the defendant was transported to the homicide office,
Detective Ryan Aucoin arrived at Cambronne Street to conduct the on-scene
investigation. He observed the body in the bedroom and blood on the bed. It appeared
that the closet and dresser drawers had been rummaged through, a torn shoe box and
black purse were on the floor, and crumpled newspaper containing blood was on a
chair. Detective Aucoin spoke briefly with the defendant at University Hospital later
that evening and found the defendant’s speech to be somewhat slurred. 3
3The defendant was at the hospital because a warrant to obtain blood and saliva samples was
being executed.

On April 9, 2009, the State charged the defendant with second degree murder.
He pleaded not guilty on April 15, 2009. The court conducted a competency hearing
on June 16, 2009. He was found competent to proceed to trial. After a hearing, the
trial court denied the defendant’s motion to suppress the evidence and statement on
July 21,2009. The defendant was again found competent to proceed to trial and after
trial on April 20, 2010, the defendant was found guilty as charged.
At the defendant’s trial, the State presented the testimony of Ms. Jones (who
discovered the victim’s body), Doctor Paul McGarry (a forensic pathologist at the
Coroner’s Office of Orleans Parish) and the police officers who investigated the crime,
Detectives Gant, Pardo, and Aucoin. The defendant’s videotaped confession was
played for the jury. Doctor McGarry testified that, had she received timely medical
attention, the victim probably would not have died from the stab wounds and that her
demise was hastened by the plastic bag tied tightly over her head while she was still
alive, causing her to asphyxiate. The doctor surmised that Ms. Decloues died from a
7

combination of asphyxia and the stab wounds. Detective Pardo testified that he did not
force, coerce or promise the defendant anything for his confession and, although the
defendant stated he had smoked crack cocaine the day before, he did not appear
intoxicated during the interview.
The defendant testified in his own defense as follows. At the time of the
murder, he was fifty-five and had lived with his mother on Cambronne Street for ten
years. They were not close due to his use of crack cocaine since his early twenties. He
had five misdemeanor convictions for possession of drug paraphernalia. In January of
2009, he worked sporadically as an auto mechanic and did other odd jobs. On January
7, 2009, he performed some work for a man renovating a house and was paid in cash.
With that money, he bought crack cocaine and smoked it. At approximately 9:00 p.m.,
he returned home to his mother’s house. After showering and eating dinner, he went
to his bedroom to watch television. As he was watching television, he started to have
some pain in his leg.4 After taking some Tylenol, he fell asleep until he was awoken
suddenly by a nightmare at approximately 2:00 a.m. The gist of the nightmare was that
he caught his “woman” in bed with another man. He remembered hitting her on the
bed before pulling her to the floor. The defendant also remembered not wanting to
look at her bloody face. He then went to the utility room and put the clothes that he
was wearing into a black bag. Next thing he knew, he was at a dumpster. At that point
he awoke from his dream, after which, he could not go back to sleep. He left the house
and went to buy crack cocaine, which he smoked. He returned to the house around
6:30 a.m. on January 8, 2009 to get ready to go to work for Mr. Brown, the auto
mechanic.
4The defendant had broken his ankle in an earlier accident, and had also had knee replacement
surgery that caused him to walk with a limp.

After he got off of work, he bought more crack cocaine. He and his friend
Matthew smoked together until they ran out of crack cocaine and money. The
defendant then pawned a saw that he took from the shed behind his mother’s house.
With that money, he smoked more crack cocaine with Matthew. The defendant
testified that he worked for Mr. Brown on January 9 and 10,2009, and with the money
he earned again bought and smoked crack cocaine.
He got off from work on January 10th at approximately 2:00 p.m. When he
went to a convenience store to purchase cigarettes later that afternoon, he noticed an
ambulance and fire truck further down the road near his mother’s house. Because his
leg was bothering him, he called Mr. Brown for a ride. Approximately two hours later,
Mr. Brown picked the defendant up and dropped him off at this mother’s house. The
defendant ran into the house and towards his mother’s bedroom. He briefly caught a
glimpse of her body lying on the floor.
The defendant stated that he had not had slept or eaten since January 7, 2009.
He could remember his dream, but he had no recollection of doing anything to his
mother or of anything about his statement to the police. He remembered going to the

8

dumpster. He did not remember going to the hospital, but he did remember having his
fingernails scraped. The defendant denied ever stealing anything from his mother.21
III. Petitioner’s Claim
Decloues claims that the state district court erroneously denied his motion to suppress his
confession because it was an involuntary statement in violation of the Fifth Amendment and the
motion to suppress the resulting evidence because it was fruit of the poisonous tree. On direct appeal,
the Louisiana Fourth Circuit denied that claim. This was the last reasoned state court opinion on the
issue. See Ylst v. Nunnemaker. 501 U.S. 797, 802 (1991) (when the last state court judgment does
not indicate whether it is based on procedural default or the merits of a federal claim, the federal court
will presume that the state court has relied upon the same grounds as the last reasoned state court
opinion).
The admissibility of a confession is a mixed question of law and fact. Miller v, Fenton. 474
U.S. 104, 112, 106 S.Ct. 445, 88 L.Ed.2d 405 (1985); Shislnday v. Ouarterman. 511 F.3d 514, 522
(5th Cir. 2007) (citing Miller. 474 U.S. at 112, 106 S.Ct. 445). A federal court on habeas review must
respect the state court’s determination of voluntariness as long as it was not “contrary to, or involved
an unreasonable application of, clearly established Federal law, as determined by the Supreme Court.”
28 U.S.C. § 2254(d)(1); Bames v. Johnson. 160 F.3d 218, 222 (5th Cir. 1998). In doing so, a federal
habeas court must afford a presumption of correctness to state courts’ findings of fact if they are fairly
supported by the record. Miller. 474 U.S. at 117, 106 S.Ct. 445.
There are two inquiries to determine whether an accused has voluntarily and knowingly waived
his Fifth Amendment privilege against self-incrimination. Moran v. Burbine. 475 U.S. 412, 421,106
S.Ct. 1135, 89 L.Ed.2d 410 (1986); Soffarv. Cockrell. 300 F.3d 588, 592 (5th Cir. 2002). First, waiver

21 State v, Decloues. 62 So.3d 778, 778-780 (La. App. 4th Cir. 2011); State Rec., Vol. 2 of 3, 4th Cir. Opinion, 2010-KA1247, pp., 2-6, 3/23/11.

9

of the right must be voluntary and not the product of intimidation, coercion or deception. Moran, 475
U.S. at 421, 106 S.Ct. 1135. Second, the waiver or relinquishment must be made with full awareness
of the nature of the right being waived. Id. A written waiver “is usually strong proof of the validity
of that waiver, but is not inevitably either necessary or sufficient to establish waiver.” North Carolina
v. Butler. 441 U.S. 369, 373 (1979).
In making these inquiries, the court must consider the “totality of all the surrounding
circumstances—both the characteristics of the accused and the details -of the interrogation.”
Schneckloth v. Bustamonte. 412 U.S. 218, 224, 93 S.Ct. 2041, 36 L.Ed.2d 854 (1973). “[T]he mere
fact that a defendant had taken drugs prior to giving a statement does not render it inadmissible.”
United States v. Taylor. 508 F.2d 761, 763 (5th Cir. 1975). “A confession may be involuntary if the
defendant is so intoxicated by alcohol or other drugs that the confession is not rationally and freely
given.” United States v. Blake, 481 F. App’x 961, 962 (5th Cir. 2012) (per curiam) (citing United
States v. Kreczroer, 636 F.2d 108,110 (5th Cir. 1981)). Nevertheless, “while mental condition is surely
relevant to an individual’s susceptibility to police coercion, mere examination of the confessant’s state
of mind can never conclude the due process inquiry.” Colorado v. Connelly, 479 U.S. 157, 165, 107
S.Ct. 515, 93 L.Ed.2d 473 (1986). Coercive police conduct is a necessary prerequisite to a conclusion
that a confession was involuntary, and the defendant must establish a causal link between the coercive
conduct and the confession. Carter v. Johnson, 131 F.3d 452, 462 (citing Connelly, 479 U.S. at 16367, 107 S.Ct. 515). A defendant’s statement is not involuntary in the absence of evidence of official
overreaching by way of coercion or psychological persuasion. Blake, 481 F. App’x at 962 (citing
United States v. Raymer, 876 F.2d 383, 386 (5th Cir. 1989)); United States v. Roias-Martinez, 968
F.2d 415, 418 (5th Cir. 1992).

10

In assessing voluntariness, “trickery or deceit is only prohibited to the extent it deprives the
suspect ‘of knowledge essential to his ability to understand the nature of his rights and the
consequences of abandoning them.

9

Soffar, 300 F.3d at 596 (quoting Moran. 475 U.S. at 424, 106

S.Ct. 1135). Determining whether officers engaged in coercive tactics to elicit a confession is a
question of fact, and the state court’s factual findings are entitled to deference when supported by the
record. Pemberton v. Collins. 991 F.2d 1218, 1225 (5th C-ir. 1993); Self v. Collins, 973 F.2d 1198,
1204 (5th Cir. 1992); see also Miller. 474 U.S. at 112,106 S.Ct. 445 (noting that subsidiary questions
such as whether the police engaged in coercive tactics are afforded the presumption of correctness).
The habeas corpus statute obliges federal judges to respect credibility determinations made by
the state court trier of fact. Pemberton. 991. F.2d at 1225 (citing Sumner v. Mata, 455 U.S. 591, 597,
102 S.Ct. 1303, 71 L.Ed.2d 480 (1982)). Flowever, if the underlying facts as determined by the state
court indicate the presence of some coercive tactic, the impact that factor had on the voluntariness of
the confession is a matter for independent federal determination and is ultimately a legal
determination. Miller. 474 U.S. at 117, 106 S.Ct. 445; Shislnday, 511 F.3dat 522.
Even if the confession is deemed involuntary under these standards, the Supreme Court has held
that the admission of an involuntary confession is a trial error subject to harmless error analysis.
Arizona v. Fulminante. 499 U.S. 279, 310, 111 S.Ct. 1246, 113 L.Ed.2d 302 (1991). Under these
standards, to grant federal habeas relief, the trial error must have a substantial and injurious effect or
influence in determining the verdict. Brecht v. Abrahamson. 507 U.S. 619,637, 113 S.Ct. 1710, 123
L.Ed.2d 353 (1993). Therefore, even if this court were to find that petitioner’s Fifth Amendment rights
were violated, the court must also consider whether use of the confession and the resulting evidence
at trial was harmless in determining the verdict. Hopkins v. Cockrell, 325 F.3d 579, 583 (5th Cir.
2003).

11

In Decloues’s case, as required by Jackson v. Denno. 378 U.S. 368, 84 S.Ct. 1774, 12 L.Ed.2d
908 (1964), the state trial court conducted an evidentiary hearing on the admissibility of Decloues’s
confession and the resulting evidence, taking testimony from Detective Aucoin and Detective Pardo
and viewing taped footage from Channel Four News taken at the time Decloues was being walked into
Central Lockup as well as the video statement of Decloues.22 Detective Pardo testified that he read
Decloues his Miranda rights and Decloues signed a New Orleans Police Department Right of Arrestee
Suspect Form and checked a box acknowledging his rights and his desire to give a statement.23 At the
conclusion of the hearing, the state trial court expressed that, “It is very marginal to me, very marginal.
I mean what I saw in that tape is somebody that is not really with us” and took the matter under
advisement.24
On July 21, 2009, the state trial court heard testimony from Dr. Vosburg, an expert in forensic
psychology, who testified that he met with Decloues that day and reviewed the video statement.25 Dr.
Vosburg opined that Decloues understood the nature of the proceedings against him, could assist
counsel, and was competent to proceed.26 Dr. Vosburg testified that it was his opinion, as well as that
of Dr. Kelly, who also met with petitioner and viewed Decloues’s video confession, that the
disorganization of thought, poor concentration, hyperactivity and fidgetiness Decloues exhibited on
the video was related to drug abuse.27 He noted that, while the video showed that there were times

0

that Decloues tended to get upset, he was easily calmed by the officer sitting next to him.28 Dr.
Vosburg could not say whether he was upset because he killed his mother, but testified that “what we
really saw was someone who was very heavily drugged up, you know, just still coming off the stuff

22
23
24
25
26
27
28

State Rec., Vol. 2 of 3, hearing transcript of July 17, 2009.
Id., at pp. 15, 17,20.
Id, at p. 23.
State Rec., Vol. 2 of 3, hearing transcript of July 21,2009.
Id., at p. 5.
Id., atp. 6.
Id.

12

that he was using and very recently. »29

He opined that while Decloues exhibited deficient

concentration at times, the video demonstrated that he could be brought back to task easily and he was
able to describe the events with great clarity.30 Dr. Vosburg noted that he saw no coercion by the
officers and, that while it was obvious Decloues was under the influence of something at the time of
his confession, it was his opinion that Decloues understood what he was doing and knowingly,
intelligently and voluntarily waived his right to remain silent before making his statement, 31 The
parties stipulated that Dr. Kelly would concur in the opinion of Dr. Vosburg if called to testify.32 After
considering the additional testimony, the state trial court denied the motions to suppress the statement
as well as the evidence.33
While counsel did not file a writ application in connection with the state trial court’s adverse
decision, he did raise the issue on direct appeal. The Louisiana Fourth Circuit entered its own findings,
which constitute the last reasoned decision on this issue. The Fourth Circuit considered and reviewed
the evidence and testimony that was received at the suppression hearing as well as the trial testimony.
The Fourth Circuit denied the claim holding:
By his sole assignment of error, the defendant argues that the trial court erred
in denying his motion to suppress because he was impaired from days of drug use and
sleep deprivation at the time he gave his statement.
Intoxication will render a confession inadmissible when the intoxication is of
such a degree as to negate the defendant’s comprehension and render him unconscious
of the consequences of what he is saying. State v. Simmons, 443 So.2d 512 (La. 1983);
State v. Robinson, 384 So.2d 332 (La. 1980). Whether intoxication exists and is of a
degree sufficient to vitiate the voluntariness of the confession are questions of fact and
we will not overturn the trial judge’s conclusions on the credibility and weight of the
testimony relating to the voluntariness of a confession unless they are not supported by
the evidence. State v. Rankin, 357 So.2d 803 (La. 1978); State v. Hutto, 349 So.2d 318
(La. 1977).
29 Mi, at pp. 6-7.
30 Mi, at pp. 7-8.
31 Id., at pp. 8-10.
32 IcL, at p. 10.
33 ]d., at p. 11.

13

The defendant argues that his demeanor during the taped confession and his
testimony at trial clearly show that he was impaired at the time he gave his confession.
The trial judge reviewed the taped confession during the motion hearing held on July
17, 2009, and, finding it marginal whether the confession was voluntary, continued the
matter until July 21,2009. When the court reconvened on that day, the State presented
the testimony of Dr. Charles Vosburg, an expert in forensic psychology. Doctor
Vosburg testified that he reviewed the tape of the defendant’s confession and, in his
opinion, the poor concentration and disorganized thought exhibited by the defendant,
along with the defendant’s hyperactivity, were due to drug abuse. He commented that
the tape indicated someone who was coming down from drugs that were recently
ingested. However, the defendant was easily calmed when he became upset, his
concentration was easily restored, and there was no observable evidence of coercion.
Moreover, the defendant spoke with clarity and with specificity during his confession.
Accordingly, based upon these observations, Doctor Vosburg opined that the defendant
knowingly waived his rights and that the statement was voluntary.
Our review of the taped confession indicates that at the beginning of the
interview the detective read the defendant his rights. The defendant appears attentive
while those rights were being read, acknowledging each one individually. When asked
whether he understood his rights, the defendant gave a definitive yes. The defendant
is noticeably fidgety and sometimes had to be asked to speak up, but as Doctor Vosburg
observed, he was easily calmed. His answers were responsive to the questions asked
by the detective. Significantly, the confession is detailed in the description of how the
murder occurred. The defendant explained that he had stayed out all night the night
before and when he returned home, he and his mother argued. After retreating to his
room to watch television and smoke more crack cocaine, he left the house again. When
he returned, he thought he could slip into his mother’s room while she slept and take
her credit card from her purse and a phone book that contained the pin number to the
credit card. When he entered the room, she was awake and the defendant asked her for
some Tylenol. He then went to the kitchen, retrieved a knife, returned to his mother’s
room, and approached her. When his mother became vocal, he attacked her. The
defendant admitted stabbing her, trying to break her neck, and suffocating her. He
stated that the drugs made him deranged. He then explained how he removed all of his
clothes and placed them in a black bag along with a glove and the knife that he wrapped
in newspaper. The defendant placed the shoes that he was wearing under his bed.
Afterwards, when he was looking for her purse, the defendant came across the lock
box. He broke into the lock box and found thirty dollars. During the interview, the
defendant expressed remorse for his actions.534
5The defendant was clearly aware of the implications of what he had done at the time of the
murder as evidenced by his explanation that, before he left the house, he opened the drawers in the chests
in their bedrooms to make it look like a burglary. He also noted that he threw the black bag in the
dumpster because he realized the evidence inside the bag was incriminating.

34 Decloues. 62 So.3d at 781-82; Vol. 2 of 3,4th Cir. Opinion, 2010-KA-1247, pp., 6-9, 3/23/11.

14

The Louisiana Supreme Court then denied petitioner’s related writ applications without
assigning additional reasons.35
On federal habeas review, this court must presume that the factual determinations of the state
courts supporting its legal conclusion were correct, including that Decloues failed to demonstrate that
he was not aware of the consequences of his statements to police officials as a result of his sleepy and
drugged condition. To overcome the presumption of correctness as to the state court’s factual findings.
Decloues must rebut them by clear and convincing evidence, which he has not done. In his federal
petition he has repeated the same allegations that were already addressed by the state courts, that his
behavior during the video statement and his trial testimony show that he did not understand what he
was saying or the resulting consequences. He has not shown that his alleged sleep deprivation and
intoxication were to a level that prevented him from knowingly waiving his Miranda rights and making
his statement freely and voluntarily.
This court’s thorough review of the state court record, including the expert’s testimony and the
video of Decloues’s confession to law enforcement, leads this court to find that the state court’s
determination that Decloues knowingly and voluntarily waived his Miranda rights is well supported
by the record. The video showed that, when Detective Wischan told Decloues that he was going to
read him his rights, Decloues responded, “I’m listening.” While appearing despondent, Decloues was
calm, attentive, and appeared to be smoking a cigarette when he was given his full Miranda warnings.
He acknowledged each of his rights as they were read to him and very clearly responded “Yes, Sir”
when asked if he understood his rights as they have been read to him.
The video certainly demonstrates that at times during his statement Decloues was agitated in
manner and in speech. However, there is ample evidence that he was mentally present, had accurate

35 State ex rel. Decloues v. State. 79 So.3d 1022, (La. 2012); State Rec. Vol. 2 of 3,La. S. Ct. Order, 2/3/12.

15

recall, knew what he was saying, and the context in which he was saying it—giving a recorded
statement to two officers in an interrogation room at the Headquarters of the New Orleans Police
Department, Homicide Division. While he mumbled at times or dropped his voice, he immediately
responded to requests to speak up. It is evident that when asked questions, he comprehended them
and responded to each one giving detailed answers. Similarly, when he needed clarification on a
question, he asked for it. His expansive narrative included details about the dimensions of a door he
was trying to sell in order to get money to buy drugs, the color of his mother’s telephone book, the
color of the gym bag in which he placed his clothes and the knife, newspaper and a lockbox, and the
exact location and color of the dumpster where he disposed of the bag.
In addition to providing significant detail, Decloues explained the events in the order of their
occurrence. He did not deviate from the timeline. In fact, he resisted doing so. When Detective Pardo
asked him what he did with the garbage bag that he used to dispose of his clothes, Decloues responded,
“I’m getting to that.” Later, when Detective Pardo asked another question about the sequence of
events, Decloues responded, “I’m telling you.”

He was extremely detailed and meticulously

chronological in his narrative of every minute of the evening leading up to and through the murder
and also afterwards as he collected things of value to take and disposed of incriminating evidence. He
articulated logical thoughts about how and why he staged the scene to look like a burglary had
occurred, a plan he formed to get a friend to go “find” the body together, and an understanding that
the bag of clothes could incriminate him and needed to be dumped. He gave his statement with a clear
recollection and understanding of what he was saying.
At times, he appeared, to be distressed that he just killed his mother and even expressed his
disbelief that he was explaining how he killed his mother. He demonstrated appropriate remorse while
relating instances of her encouraging him to get help, items he had stolen from her in the past, and

16

efforts she had made to make sure he did not steal her things. When given an opportunity to make any
further statement, he ended with a lecture on the evils of drugs: “Drugs is a killer.” For all of these
reasons, the video does not demonstrate that Decloues was too incapacitated by drugs and sleep
deprivation to knowingly and voluntarily waive his Miranda rights before confessing to the murder
As such, Decloues has failed to show his waiver was not a product of his own free will.
Furthermore, there is no evidence that he was under the influence of fear, intimidation, menaces,
threats, inducements, or’promises. The video demonstrates that the detectives were polite and
solicitous toward Decloues. Detective Pardo is shown patting Decloues’s back or arm on multiple
occasions. In the 25 minute videotaped confession, Decloues did the majority of the talking; he was
rarely prompted by the officers present, and was never asked leading or misleading questions. When
Detective Pardo asked if he had been threatened, forced or promised anything to give the statement,
Decloues responded “No” three times. He emphatically stated that, “Yes, this is what happened. I’m
sick, but that’s exactly what happened.” For these reasons, Decloues has failed to show that his waiver
was involuntary. Addison v. Rader. Civ. Action No. 12-0977, 2013 WL 4039425, at *9 (E.D. La.
Aug. 7, 2013) (petitioner’s intoxication as a result of drugs and or alcohol consumed over a number
of days that day did not render his statement involuntary where there was no evidence of any coercion
or overreaching on the part of the arresting officers) (citing Martinez v. Quartern!an, 270 F. App’x
277, 289-90 (5th Cir. 2008) (finding that petitioner was not entitled to relief as to claim of ineffective
assistance, of counsel because, even assuming he was intoxicated when he gave written confession, he
failed to show any overreaching or coercive treatment by police)), appeal dismissed, 13-10943 (5th
Cir. Jan. 8, 2014); see Merridith v. Cain, Civ. Action No. 04-1227, 2007 WL 1466829, at *7-8 (W.D.
La. Nov. 14, 2007) (rejecting claim of ineffective assistance of counsel in failing to file a motion to
suppress confession where “Merredith’s intoxication by itself could not support a finding of

17

involuntariness and is relevant only to the extent it made him more susceptible to mentally coercive
police tactics,” and there was no evidence of coercive tactics by police).
The state court’s factual determinations that the statement was voluntary, not coerced, and that
Decloues knew the ramifications of his actions and waiver are supported by the record. Therefore,
this court on habeas corpus review must accept as conclusive the state court’s factual determination
that Decloues knew the consequences of his statements. The state court’s legal conclusion that
Decloues offered the statements voluntarily is reasonably based upon these facts. Since the statements
were voluntary as a matter of fact and law, harmless error analysis is unnecessary. The denial of relief
on this issue was not contrary to or an unreasonable application of Supreme Court precedent. Decloues
is not entitled to relief on this claim.
RECOMMENDATION
It is therefore RECOMMENDED that the federal application for habeas corpus relief filed by
Tony Decloues be DISMISSED WITH PREJUDICE.
A party’s failure to file written objections to the proposed findings, conclusions, and
recommendation in a magistrate judge’s report and recommendation within fourteen (14) days after
being served with a copy shall bar that party, except upon grounds of plain error, from attacking on
appeal the unobjected-to proposed factual findings and legal conclusions accepted by the district court,
provided that the party has been served with notice that such consequences will result from a failure
to object. 28 U.S.C. § 636(b)(1); see Douglass v. United Services Auto. Ass’n, 79 F.3d 1415, 1430
(5th Cir. 1996) (en banc).
New Orleans, Louisiana, this 8th day of March, 2019.

C\ •

M&zowgjLiL

\ JANIS VAN MEERVELD
UNITED STATES MAGISTRATE JUDGE

18

■jl

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
TONY DECLOUES

CIVIL ACTION

VERSUS

NO: 14-1158

BURL CAIN, WARDEN

SECTION: R
ORDER

Before the Court is Tony DeCloues's petition for federal habeas corpus
relief under 28 U.S.C. § 2254. The Court, having reviewed de novo the
petition, the record, the applicable law, the Magistrate Judge's Report and
Recommendation ("R & R"),2 and the petitioner's objections thereto,3 hereby
approves the R & R and adopts it as its opinion.
Petitioner objects to the R & R on the grounds that the Magistrate Judge
did not adequately address petitioner's claim that his Fifth Amendment rights
were violated by the introduction of his confession, as well as evidence that law
enforcement seized on the basis of the confession. This objection is meritless
because the Magistrate Judge addressed this claim at length. The Magistrate
Judge correctly deferred to the state court's fact-finding concerning subsidiary

i

R. Doc. 1.

2 R. Doc. 21.
3 R. Doc. 22.

APPENDIX

b

factual questions, and she correctly determined that the state court reasonably
applied federal law in concluding that petitioner's confession was voluntary.
Petitioner's argument that defense counsel was ineffective because he (1) failed
to investigate and call certain witnesses and (2) failed to raise the defense of
intoxication also lacks merit. The Magistrate Judge thoroughly addressed this
argument in the R & R, and the Court need not reiterate her analysis here.
Rule 11(a) of the Rules Governing Section 2254 Proceedings provides
that "[t]he district court must issue or deny a certificate of appealability when
it enters a final order adverse to the applicant." A court may only issue a
certificate of appealability if the petitioner makes "a substantial showing of the
denial of a constitutional right." 28 U.S.C. § 2253(c)(2). The "controlling
standard" for a certificate of appealability requires the petitioner to show "that
reasonable jurists could debate whether (or, for that matter, agree that) the
petition should have been resolved in a different manner or that the issues
presented [are] adequate to deserve encouragement to proceed further."
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (quoting Slack v. McDaniel,
529 U.S. 473, 484 (2000)). The Court finds that DeCloues's petition, in
conjunction with his objections to the Magistrate Judge's R & R, does not
satisfy this standard.

Thus, the Court will not issue a certificate of

appealability.
2

For the foregoing reasons, the Court DENIES DeCloues's petition for
habeas corpus and DENIES a certificate of appealability.

New Orleans, Louisiana, this 22nc day of April, 2016.

e_.
' SARAHS. VANCE
UNITED STATES DISTRICT JUDGE

3

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
TONYDECLOUES

CIVIL ACTION

VERSUS

NO. 14-1158

N. BURL CAIN, WARDEN

SECTION “R”(1)
JUDGMENT

The Court having approved the Report and Recommendation of the United States
Magistrate Judge and having adopted it as its opinion herein;
Accordingly,
IT IS ORDERED, ADJUDGED, AND DECREED that there be judgment
against petitioner, Tony Decloues, dismissing with prejudice his petition for issuance of
a writ of habeas corpus under 28 U.S.C. § 2254.
New Orleans, Louisiana, this 22nd day of April, 2016.

SARAH S. VANCE
UNITED STATES DISTRICT JUDGE

^(07 'Yl

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 16-30579
USDC No. 2:14-CV-1158

TONY DECLOUES
Petitioner-Appellant
v.
DARREL VANNOY, WARDEN, LOUISIANA STATE PENITENTIARY,
Respondent-Appellee

Appeal from the United States District Court for the
Eastern District of Louisiana, New Orleans

ORDER:
Tony Decloues, Louisiana prisoner # 193085, moves for a certificate of
appealability (COA) to appeal the denial of his 28 U.S.C. § 2254 habeas corpus
petition, which challenged his second degree murder conviction. To obtain a
\

COA, Decloues must make “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see Miller-El v. Cockrell, 537 U.S.
322, 336 (2003). Because the district court denied Decloues’s claims on the
merits, he “must demonstrate that reasonable jurists would find the district
court’s assessment of the constitutional claims debatable or wrong” or that “the
issues presented were adequate to deserve encouragement to proceed further.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000) (internal quotation marks and
citation omitted).

'
APPENDIX

E

No. 16-30579
Decloues challenges the denial of § 2254 relief regarding the validity of
his confession and the evidence that he asserts was the fruit of that confession.
Decloues argues that the state courts’ denial of his claim that he was too
impaired by drug use and sleep deprivation to waive his rights under Miranda
v. Arizona, 384 U.S. 436, 478-79 (1966), was “contrary to, or involved an
unreasonable application of, clearly established Federal law as determined by
the Supreme Court of the United States,” § 2254(d)(1), or was “based on an
unreasonable determination of the facts in light of the evidence presented in
the State court proceeding,” § 2254(d)(2). See Berghuis v. Thompkins, 560 U.S.
370, 384 (2010); Moran v. Burbine, 475 U.S. 412, 421 (1986).

Relatedly,

Decloues complains that the videotape of his confession was not made a part
of the federal habeas record, and he argues that the district court improperly
denied relief without reviewing the videotape.

Because reasonable jurists

would find the denial of these constitutional claims debatable or wrong or that
these issues were adequate to deserve encouragement to proceed further,
Decloues’s motion for a COA is GRANTED IN PART as to these issues only.
See Slack, 529 U.S. at 484. Decloues’s motion for leave to proceed in forma
pauperis (IFP) on appeal is also GRANTED, and the clerk is DIRECTED to
issue a briefing schedule.
Decloues also argues that his trial attorney was ineffective in failing to
interview or call several witnesses or to obtain medical records and in failing
to present an intoxication defense. He complains that the district court denied
an evidentiary hearing for these claims.

Decloues has failed to make the

required showing for a COA as to these issues. See Slack, 529 U.S. at 484.
Accordingly, his COA motion is DENIED IN PART as to all other issues.
/s/Jennifer Walker Elrod
JENNIFER WALKER ELROD
UNITED STATES CIRCUIT JUDGE
2

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 16-30579

United States Court of Appeals
Fifth Circuit

FILED
TONY DECLOUES
Petitioner - Appellant

August 17, 2018
Lyle W. Cayce
Clerk

v.
DARREL VANNOY, WARDEN, LOUISIANA STATE PENITENTIARY,
Respondent - Appellee

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:14-CV-1158

Before GRAVES and COSTA, Circuit Judges, and BENNETT, District Judge.*
PER CURIAM:**
A Louisiana jury convicted Tony Decloues for the murder of his mother
and sentenced him to life in prison. After the district court denied Decloues’s
habeas petition, we authorized an appeal on two questions: (1) whether he was
too incapacitated by drugs and sleep deprivation to knowingly and voluntarily
waive his Miranda rights before confessing to the murder, and (2) whether the
district court erred in rejecting the challenge to the Miranda waiver without
reviewing the video of the confession. Based only on the procedural challenge

^District Judge for the Southern District of Texas, sitting by designation.
** Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.
APPENDIX

P

No. 16-30579
Decloues brings to the incomplete record, we vacate the district court’s denial
of the petition and remand for the court to obtain and view the video.
Before making a recommendation on Decloues’s habeas petition, the
magistrate judge ordered the Orleans Parish District Attorney to file a copy of
the entire state court record.

But there is no indication in the record before

us, and the DA’s office does not contend, that its submission included the video
of the confession. After the magistrate judge issued a report recommending
that the petition be denied, Decloues objected on the ground that the court
should have watched the video before making that determination. Contrast
Dillard v. Blackburn, 780 F.2d 509, 513 (5th Cir. 1986) (holding the district
court committed no error because Dillard “neither objected nor requested that
additional [state court] transcripts be furnished”). The district court overruled
that and other objections and denied the petition.
Because federal district courts reviewing habeas petitions are not acting
as courts of appeal for state convictions, they are not required to review the
state record “in its entirety.” Id. Choosing whether to do so is left to the judge’s
discretion. Id. A court may make its habeas decision after reviewing only the
relevant portions of the state record. Id.
So we have affirmed the denial of habeas petitions when the federal court
did not have the complete record from the state court. See Valdez v. Cockrell,
274 F.3d 941, 956 (5th Cir. 2001). In Valdez, for example, the district court did
not have a number of exhibits from the state trial. Id. at 956-57. But those it
did have “form[ed] the basis for Valdez’s central contention” and placed before
the court materials essential to review the state court’s decision. Id. at 956.
Likewise, Dillard found no error when the district court reviewed only
abbreviated transcripts and certain portions of the state court record because,
in part, Dillard had not shown “prejudice.” 780 F.2d at 513; see also Tabler v.
Stephens, 588 F. App’x 297, 308 (5th Cir. 2014) (holding that the district court
2

No. 16-30579
had adequately considered the claims presented because Tabler was unable to
show prejudice from an incomplete trial transcript).
But a federal habeas court cannot rely solely on the state court’s opinion
when deciding if that opinion clearly erred in its factfinding. In Magouirk v.
Phillips, we were “at a loss to understand” how a meaningful sufficiency review
could take place given that the district court did not possess a trial transcript.
144 F.3d 348, 362-63 (5th Cir. 1998). We explained that the deference federal
courts must give to state court factfinding does not extend so far that “we may
simply rely upon the state court decision [the defendant] identifies as denying
his constitutional rights to support our conclusion that they were not violated.”
Id. at 363; see also Nasby v. McDaniel, 853 F.3d 1049, 1052-53 (9th Cir. 2017)
(finding “no alternative” to remand because the district court relied on the facts
as described by the Nevada Supreme Court instead of independently
examining trial and evidentiary hearing transcripts or conducting a hearing of
its own). Indeed, under AEDPA “state court fact findings may not be entitled
to the same deference when the federal habeas record does not contain that
portion of the state court record that it is required to establish the sufficiency
of the evidence to support the state court’s fact finding.” Magouirk, 144 F.3d
at 362 (citing 28 U.S.C. § 2254(e)).
The district court reviewing Decloues’s petition had more material to
review than just the Louisiana Court of Appeal’s description of his confession.
The state court record it received also includes testimony from a detective and
doctor discussing whether Decloues appeared intoxicated when he confessed.
Those records also contain a transcript of the suppression hearing showing
that after viewing the video the state trial judge said, “It is very marginal to
me, very marginal. I mean, what I see[] in that tape is somebody that is not
really with us.”

3

A

No. 16-30579
But the district court did not have access to the video. That recording is
likely the most probative evidence for evaluating whether Decloues’s Miranda
waiver was knowing and voluntary. Although the court had before it multiple
second-hand accounts, there is no complete substitute for video evidence. Cf.
Scott v. Harris, 550 U.S. 372, 378-81 (2007) (assigning greater weight to facts
evident in videos). That the video led the state trial judge to view the waiver
question as a close one confirms its importance. The centrality of the video to
Decloues s claim that he was incapacitated when he confessed makes this more
like the cases finding the absence of certain records problematic.
k k k

Without addressing Decloues’s substantive Miranda claim, we VACATE
the denial of the habeas petition and REMAND this matter so the district court
can obtain and review the video of the confession.

4

J

https://nextcorrectiongl.westlaw.com/Document/Ifbb0b6cc95adll...

State ex rel. DeCloues v. State | WestlawNext

WESTLAW
State ex rel. DeCloues v. State
Supreme Court of Louisiana.

February 7, 2014

131 So.3d 857 (Mem)

2013-1694 (La. 2/7/14) (Approx. 1 page)

131 So.3d 857 (Mem)
Supreme Court of Louisiana.

STATE ex rel. Tony DeCLOUES (DeClues)
v.
STATE of Louisiana.
No. 2013-KH-1694.
Feb. 7, 2014.
Opinion
In re Tony DeCloues (DeClues);—Plaintiff; Applying For Supervisory and/or Remedial *858
Writs, Parish of Orleans, Criminal District Court Div. D, No. 485-036; to the Court of Appeal,
Fourth Circuit, No. 2013-K-0782.
Denied.
All Citations
131 So.3d 857 (Mem), 2013-1694 (La. 2/7/14)

End of

© 2020 Thomson Reuters. No claim to original U.S, Government Works.

Document

WestlawNext. © 2020 Thomson Reuters

SSt

thomsom fseu-reas

Thomson Reuters &r>ot"providing legal advice

APPENDIX
&
1 of 1

https://nextcorrectional.westlaw.com/Document/I0cce86f656dlll...

State v. Decloues | WesdawNext

WESTLAW
State v. Decloues
Court of Appeal of Louisiana, Fourth Circuit.

March 23, 2011

62 So.3d 778

2010-1247 (La.App. 4 Cir. 3/23/11) (Approx. 6 pages)

62 So.3d 778
Court of Appeal of Louisiana,
Fourth Circuit.

STATE of Louisiana
v.

Tony DECLOUES (Declues).
No. 2010-KA-1247.
March 23, 2011.
Synopsis
Background: Defendant was convicted by a jury in the District Court, Orleans Parish, No.
485-036, Section D, Frank A. Marullo, J., of second degree murder. Defendant appealed.

Holding: The Court of Appeal, Edwin A. Lombard, J., held that the trial court's denial of
defendant's motion to suppress his confession on the basis that the confession was
involuntary due to intoxication was not an abuse of discretion.
Affirmed.
West Headnotes (3)

j
Change View

1

Criminal Law C55* Particular cases
The trial court's denial of defendant's motion to suppress his confession on the

i

!

basis that the confession was involuntary due to intoxication was not an abuse of
discretion; defendant's confession coincided with the physical evidence, and the
videotape of the confession showed that defendant was advised of and
understood his rights.
2 Cases that cite this headnote
2

i

Criminal Law Q5*' Intoxication
Intoxication will render a confession inadmissible when the intoxication is of such
a degree as to negate the defendant's comprehension and render him
unconscious of the consequences of what he is saying.

!
1 Case that cites this headnote
3

Criminal Law 0s* Confessions, admissions, and declarations
Criminal Law

Admission, statements, and confessions

Whether intoxication exists and is of a degree sufficient to vitiate the
voluntariness of the confession are questions of fact and the Court of Appeals will
not overturn the trial judge's conclusions on the credibility and weight of the
testimony relating to the voluntariness of a confession unless they are not
supported by the evidence.
1 Case that cites this headnote

Attorneys and Law Firms
*778 Leon A. Cannizzaro, Jr., District Attorney, Matthew Caplan, Assistant District Attorney,
New Orleans, LA, for State of Louisiana.
Mary Constance Hanes, Louisiana Appellate Project, New Orleans, LA, for
Defendant/Appellant.

APPENDIX-

(Court composed of Judge MICHAEL E. KIRBY, Judge EDWIN A. LOMBARD, Judge

1 of 5

10/3/20, 9:53 PM

-

s

State v. Decloues | WestlawNext

3

https://nextcorrectional.westlaw.com/Document/I0cce86f656dlll...

l)

DANIEL L. DYSART).

Opinion

I
EDWIN A. LOMBARD, Judge.
'

**2 Tony Decloues appeals1 his conviction and sentence for second degree murder. After
review of the record in light of the applicable law and arguments of the parties, we affirm the
defendant's conviction and sentence.
Relevant Facts and Procedural History
On January 10, 2009, June Jones discovered the body of Louise Decloues in-the bedroom
of Ms. Decloues' home at 1312 Cambronne Street. The seventy-four year old victim had
been stabbed five times. Three of the stab wounds were to her upper chest, one was to her
upper abdomen, and the last stab wound went *779 through her wrist. In addition, a plastic
bag was tied over her head, causing her to asphyxiate. Upon observing the victim lying on
the floor with a bag over her head, Ms. Jones ran from the house and called 911. .Detective
Randi Gant arrived at the scene, finding the defendant (who resided with his mother at 1312
Cambronne Street) in the backyard. He appeared agitated and tried to leave; he told the
detective that he did not know what had happened to his mother and that he had been at the
house of a friend, Pershing Matthews, since 2:00 p.m. on the previous day. ,
**3 The defendant was transported to the homicide office, where he was met by Detective
Anthony Pardo who read him his rights. The defendant signed a rights of arrestee form and
indicated to the detective that he understood his rights. He initially told Detective Pardo that
he was at Mr. Matthews' house. However, after being confronted with the information that
Mr. Matthews disputed this assertion, the defendant eventually confessed to stabbing and
suffocating his mother. After taping his confession, the defendant showed the detective Ihe
dumpster on Dante Street where he had disposed of the murder weapon and the clothing he
i.

had worn during the murder. After obtaining a search warrant for the dumpster, the police
retrieved a black gym bag, blue lock box, gloves, sweat shirt sweat pants, a knife, and a
small white bag containing newspaper. Everything recovered from the dumpster except the
lock box had blood on it that was identified as human blood. No latent prints were found on
the recovered knife, and no DNA testing was conducted on any of the evidence. In addition,
two pairs of shoes found under the defendant's bed on Cambronne Street also contained
human blood.2

_

Meanwhile, shortly after the defendant was transported to the homicide office, Detective
Ryan Aucoiri arrived at Cambronne Street to conduct the on-scene investigation. He
observed the body in the bedroom and blood on the bed. It appeared that the closet and
dresser drawers had been rummaged through, a torn shoe box and black purse were on the
floor, and crumpled newspaper containing blood was on a chair. Detective Aucoin spoke
briefly with the defendant at University Hospital later that evening and found the defendant's
speech to be somewhat slurred.3
**4 On April 9, 2009, the State charged the defendant with second degree murder. He
pleaded not guilty on April 15, 2009. The court conducted a competency hearing on June
4

16, 2009. He was found competent to proceed to trial. After a hearing, the trial court denied
the defendant's motion to suppress the evidence and statement on July 21, 2009. The
defendant was again found competent to proceed to trial and after trial on Aprii 20, 2010, the
defendant was found guilty as charged.
At the defendant's trial, the State presented the testimony of Ms. Jones (who discovered the
victim's body), Doctor Paul McGarry (a forensic pathologist at the Coroner's Office of
Orleans Parish) and the police officers who investigated the crime, Detectives Gant, Pardo,
and Aucoin. The defendant's videotaped confession was played for the jury. Doctor McGarry
testified that, had she received timely medical attention, the victim probably would not have
died from the stab wounds and that *780 her demise was hastened by the piastic bag tied
tightly over her head while she was still alive, causing her to asphyxiate. The doctor
surmised that Ms. Decloues died from a combination of asphyxia and the stab wounds.
Detective Pardo testified that he did not force, coerce or promise the defendant anything for
his confession and, although the defendant stated he had smoked crack cocaine the day
before, he did not appear intoxicated during the interview.
The defendant testified in his own defense as follows. At the time of the murder, he was fifty-

'

J

2 of 5

10/3/20, 9:53 PM

State v. Decloues | WestlawNext

https://nextcorrectional.westlaw.com/Document/I0cce86f656dlll...

were due to drug abuse. He commented that the tape indicated someone who was coming
down from drugs that were recently ingested. However, the defendant was easily calmed
when he became upset, his concentration was easily restored, and there was no observable
evidence of coercion. Moreover, the defendant spoke with clarity and with specificity during
his confession. Accordingly, based upon these observations, Doctor Vosburg opined that the
defendant knowingly waived his rights and that the statement was voluntary.
Our review of the taped confession indicates that at the beginning of the interview the
detective read the defendant his rights. The defendant appears attentive while those rights
were being read, acknowledging each one individually. When asked whether he understood
his rights, the defendant gave a definitive yes. The defendant is noticeably fidgety and
sometimes had to be asked to speak up, but as Doctor Vosburg observed, he was easily
calmed. His answers were responsive to the questions asked by the detective. Significantly,
the confession is detailed in **8 the description of how the murder occurred. The defendant
explained that he had stayed out all night the night before and when he returned home, he
and his mother argued. After retreating to his room to watch television and smoke more
crack cocaine, he left the house again. When he returned, he thought he could slip into his
mother's room while she slept and take her credit card from her purse and a phone book
that contained the pin number to the credit card. When he entered the room, she was awake
and the defendant asked her for some Tylenol. He then went to the kitchen, retrieved a
knife, returned to his mother's room, and approached her. When his mother became vocal,
he attacked *782 her. The defendant admitted stabbing her, trying to break her neck, and
suffocating her. He stated that the drugs made him deranged. He then explained how he
removed all of his clothes and placed them in a black bag along with a glove and the knife
that he wrapped in newspaper. The defendant placed the shoes that, he was wearing under
his bed. Afterwards, when he was looking for her purse, the defendant came across the lock
box. He broke into the lock box and found thirty dollars. During the interview, the defendant
expressed remorse for his actions.5
Moreover, the defendant's confession coincides with the physical evidence presented at
trial. The tape and testimony show that appellant was advised of and understood his rights.
Doctor Vosburg's observations of the defendant's taped confession appear accurate. The
district court viewed the taped confession and heard the testimony of Detective Pardo and
Dr. Vosburg before finding the confession to be voluntary. Because the confession is
supported by the evidence, "9 we do not find the trial court abused its discretion by denying
the motions to suppress the statement and evidence.
Errors Patent
The transcript of the sentencing hearing shows that the defendant's life sentence was
imposed without benefit of probation, parole or suspension of sentence, and the minute
entry of sentencing fails to reflect that the district court restricted parole eligibility as required
by La.Rev.Stat. 14:30.1. The minute entry reflecting the illegally lenient sentence was sent
to the Department of Corrections as evidence of the sentence imposed. However, pursuant
to La.Rev.Stat. 15:301.1 Aand State v. Williams, 2000-1725 (La. 11/28/01), 800 So.2d 790,
the sentence is deemed to have been imposed with the restriction of benefits, even in the
absence of the minute entry showing the restrictions.
Conclusion
The defendant's conviction and sentence are affirmed.
AFFIRMED.
All Citations
62 So.3d 778, 2010-1247 (La.App. 4 Cir. 3/23/11)
Footnotes
L
1

On February 1,2011, the defendant filed a motion for leave and extension of
time to file a pro se brief. The motion was granted on February 3, 2011, and
the defendant was ordered to submit his brief within thirty days. That time
period has expired and the court has not received the brief or a motion for
extension of time.

2

4 of 5

The shoes were found when a search warrant was executed at the house on

10/3/20, 9:53 PM

https://nextcorrecti0Pal.westlaw.com/Document/I0cce86f656dlll...

State v. Decloues | WestlawNext

January 11, 2009. Inexplicably, no DNA testing of the blood was done to
discover if the blood on the defendant's shoes was that of his mother.
3

The defendant was at the hospital because a warrant to obtain blood and
saliva samples was being executed.

4

The defendant had broken his ankle in an earlier accident, and had also had
knee replacement surgery that caused him to walk with a limp.

5

The defendant was clearly aware of the implications of what he had done at
the time of the murder as evidenced by his explanation that, before he left the
house, he opened the drawers in the chests in their bedrooms to make it look
like a burglary. He also noted that he threw the black bag in the dumpster
because he realized the evidence inside the bag was incriminating.

End of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Document

WestlawNext. © 2020 Thomson Reuters

5 of 5

fe/l} WOMSON OfUTtftS
Thomson Reuters i'i'-not providing Segal advice

10/3/20, 9:53 PM

